No.

 

In THE

Supreme Court of the United States

ARCHER AND WHITE SALES, INC., CROSS-PETITIONER,
v.

HENRY SCHEIN, INC.

ON CROSS-PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CONDITIONAL CROSS-PETITION
FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,412 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 2, 2020.

ida

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
